No. 20-543 and 20-544
IN THE SUPREME COURT OF THE UNITED STATES
JANET L. YELLEN, SECRETARY OF THE TREASURY,
PETITIONER
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL., PETITIONERS
v.
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the JOINT APPENDIX, via e-mail and first-class mail, postage prepaid, this 22nd day of
February, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
February 22, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0543 and 20-544
YELLEN, JANET L., SECRETARY OF THE
TREASURY
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
NICOLE E. DUCHENEAUX
1404 FORT CROOK ROAD SOUTH
BELLEVUE, NE 68005
531-466-8792
NDUCHENEAUX@BIGFIRELAW.COM
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN
JEFFREY S RASMUSSEN
PATTERSON EARNHART REAL BIRD &
WILSON LLP
357 S. MCCASLIN BOULEVARD
SUITE 200
LOUISVILLE, CO 80027
303-926-5292
JRASMUSSEN@NATIVELAWGROUP.COM
303-926-5293(Fax)

